                                                                 Issue Date
                                                                        September 29, 2009
                                                                 Audit Report Number
                                                                         2009-CH-1018




TO:         Steven E. Meiss, Director of Public Housing Hub, 5APH


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Chicago Housing Authority, Chicago, Illinois, Needs to Improve Its
           Controls over the Enforcement of Housing Quality Standards

                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Chicago Housing Authority’s (Authority) Section 8 Housing
             Choice Voucher program (program) under its Moving to Work Demonstration
             program. The audit was part of the activities in our fiscal year 2009 annual audit
             plan. We selected the Authority based upon our analysis of risk factors relating to
             the housing agencies in Region V’s jurisdiction. Our objective was to determine
             whether the Authority administered its program in accordance with the U.S.
             Department of Housing and Urban Development’s (HUD) requirements and its
             program administrative plan regarding the enforcement of housing quality
             standards abatement actions and rent reasonableness determinations. This is the
             fourth of multiple audit reports that may be issued regarding the Authority’s
             program.

 What We Found

             The Authority’s program administration regarding the effectiveness of its
             abatement process, rent reasonableness determinations, and the recovery of
             overpayments of housing assistance and utility allowances to multiple owners for
             a single household was inadequate. Of the 98 program households statistically
             selected for review, the Authority failed to properly abate program units that
           failed housing quality standards inspections. As result, it overpaid more than
           $49,000 in housing assistance and utility allowances and allowed tenants to reside
           in units that were not decent, safe, and sanitary. Based on our statistical sample,
           we estimate that over the next year, HUD will pay more than $1.4 million in
           housing assistance for units that are in a failed status.

           The Authority did not properly determine or document the reasonableness of
           program rents before approving housing assistance contracts and rent increases. It
           received more than $63,000 in program administrative fees related to the 133
           households for which contract rents were inadequately determined to be
           reasonable.

           Further, the Authority failed to ensure that owners did not receive multiple
           housing assistance payments for a single household. Of the 105 households
           reviewed, 12 owners received more than $64,000 in improper housing assistance
           and utility allowances.

           We informed the Authority’s chief executive officer and the Director of HUD’s
           Chicago Office of Public Housing of minor deficiencies through a memorandum,
           dated September 23, 2009.

What We Recommend

           We recommend that the Director of HUD’s Chicago Office of Public Housing
           require the Authority to reimburse its program from nonfederal funds for the
           improper use of more than $117,000 in program funds, provide documentation or
           reimburse its program more than $63,000, and implement adequate procedures
           and controls to address the findings cited in this audit report to prevent more than
           $1.4 million in program funds from being spent on units that are not in
           compliance with HUD’s housing quality standards.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our supporting schedules to the Director of HUD’s Chicago Office
           of Public Housing and the Authority’s chief executive officer during the audit.
           We also provided our discussion draft audit report to the Authority’s chief
           executive officer, its board chairman, and HUD’s staff during the audit. We held
           an exit conference with the Authority’s staff on September 9, 2009.




                                             2
We asked the Authority’s chief executive officer to provide comments on our
discussion draft audit report by September 25, 2009. The Authority’s chief
executive officer provided written comments, dated September 25, 2009. The
chief executive officer generally agreed with our findings and recommendations.
The complete text of the written comments, along with our evaluation of that
response, can be found in appendix B of this report except for 53 pages of
attachments and five binders of additional documentation that was not necessary
for understanding the Authority’s comments. A complete copy of the Authority’s
comments plus the documentation was provided to the Director of HUD’s
Chicago Office of Public Housing.




                               3
                            TABLE OF CONTENTS

Background and Objective                                                           5

Results of Audit
      Finding 1: The Authority Did Not Accurately Abate Housing Assistance         7
                 Payments

      Finding 2: The Authority’s Rent Reasonableness Procedures Were Inadequate   13

      Finding 3: Controls over Recovery of Erroneous Housing Assistance
                 and Utility Allowance Payments to Landlords Need Improvement     17

Scope and Methodology                                                             21

Internal Controls                                                                 23

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use              25
   B. Auditee Comments and OIG’s Evaluation                                       26
   C. HUD Regulations and the Authority’s Policies                                36




                                            4
                       BACKGROUND AND OBJECTIVE

The Chicago Housing Authority (Authority) was established in April 1934 under the laws of the
State of Illinois to provide decent, safe, and sanitary housing. The Authority is governed by a
10-member board of commissioners (board) appointed by the mayor of Chicago, Illinois, to five-
year staggered terms. The board’s responsibilities include overseeing the Authority’s operations,
as well as the review and approval of its policies. The mayor also appoints the Authority’s chief
executive officer. The chief executive officer is responsible for coordinating established policy
and carrying out the Authority’s day-to-day operations.

In May 1995, the U.S. Department of Housing and Urban Development (HUD) assumed control
of the Authority due to years of management problems and deteriorated living conditions at the
Authority’s developments. HUD selected Quadel Consulting Corporation (Quadel) to
administer, manage, and operate the Authority’s Section 8 Housing Choice Voucher program
(program) in October 1995. The contractor created a subsidiary, CHAC, Inc., which formally
took over the Authority’s program administration in December 1995.

In 1996, Congress authorized the Moving to Work Demonstration (Moving to Work) program as
a program under HUD. The Authority was accepted into the Moving to Work program on
February 6, 2000, when HUD’s Assistant Secretary for Public and Indian Housing signed the
Authority’s Moving to Work agreement (agreement). Moving to Work allows certain housing
authorities to design and test ways to promote self-sufficiency among assisted families, achieve
programmatic efficiency, reduce costs, and increase housing choices for low-income households.
Congress exempted the Moving to Work participants from much of the United States Housing
Act of 1937 and associated regulations. The agreement requires the Authority to abide by the
statutory requirements in Section 8 of the United States Housing Act of 1937 and the annual
contributions contract, except as necessary for the Authority to implement its Moving to Work
demonstration initiatives.

In April 2007, the Authority issued a request for proposal to provide administration and
operation of the Authority’s program. The two respondents to the request for proposal were
Quadel, the Authority’s administrator of the program at the time, and CVR Associates,
Incorporated (CVR). Through a series of meetings and negotiations with both vendors, the
evaluation committee determined that it was in the best interest of the Authority to divide the
administration and operations of the program between the two vendors. The division of the
program commenced in June 2008. Although the contractors administer the program, the
Authority is ultimately responsible to HUD for program operations.

CVR began administering and operating the housing quality standards inspections portion of the
Authority’s program after the division. It used a subcontractor, McCright and Associates
(McCright), to conduct housing quality standards inspections beginning in June 2008. As a
result and after the division, CVR through McCright was responsible for determining the
abatement actions and the rent reasonableness determination. As of June 30, 2009, the Authority
had 49,338 vouchers funded under the annual contributions contract with HUD totaling more


                                                 5
than $445 million in program funds. The Authority paid its contractors more than 90 percent of
its administrative fee to operate the program.

Our objective was to determine whether the Authority administered its program in accordance
with HUD’s requirements to include determining whether the Authority (1) properly abated
housing assistance payments to owners whose units failed inspection, (2) correctly performed
and documented rent reasonableness determinations at initial lease-up and for requested rent
increases, and (3) recovered the overpayment of housing assistance erroneously paid to landlords
because of multiple identification numbers assigned to a single household. This is the fourth of
multiple audit reports that may be issued regarding the Authority’s program (see report number
2008-CH-1017, issued September 30, 2008; report number 2009-CH-1005, issued February 19,
2009; and report number 2009-CH-1009, issued May 19, 2009).




                                               6
                                 RESULTS OF AUDIT

Finding 1: The Authority Did Not Accurately Abate Housing
                        Assistance Payments
The Authority’s contractors did not appropriately abate housing assistance payments after their
inspectors determined that program units did not meet housing quality standards. We reviewed
98 program households whose units failed the Authority’s housing quality standards inspections
and determined that for 68 units needing abatement, 20 were not abated, and 18 were not abated
correctly. This condition occurred because the Authority failed to adequately monitor and
provide oversight of its contractors to ensure that HUD’s regulations and its program
administrative plan were appropriately followed. As a result, the Authority improperly paid
$49,098 in housing assistance for units that were not abated, and households were subjected to
units that were not decent, safe, and sanitary. We estimate that over the next year, the Authority
will pay more than $1.4 million in housing assistance for units for which the Authority should
have abated the payments.



 The Authority’s Contractors
 Failed to Abate Housing
 Assistance for Units Failing
 Reinspections

               The Authority divided the administration and operations of its program between
               CVR and Quadel beginning in June 2008. This division resulted in CVR being
               responsible for and performing the inspections, but both contractors were
               responsible for administering a portion of the housing vouchers and operating the
               program, which included placing and lifting abatements.

               According to HUD regulations at 24 CFR [Code of Federal Regulations]
               982.404(a), if the owner fails to maintain the dwelling unit in accordance with
               housing quality standards, the public housing authority must take prompt and
               vigorous action to enforce the owner’s obligations. The public housing authority
               must not make housing assistance payments for a dwelling unit that fails to meet
               the housing quality standards unless the owner corrects the defect within the
               period specified by the public housing authority and the authority verifies the
               correction. If a defect is life threatening, the owner must correct the defect within
               24 hours. For other defects, the owner must correct the defect within 30 calendar
               days (or any public housing authority-approved extension).

               From the 5,334 program households whose units failed reinspections between
               January 1 and December 31, 2008, we statistically selected 98 units for review



                                                 7
using data mining software. Of the 98 units reviewed, 68 needed abatement. Of
the 68 units that needed abatement, 20 were not abated and 18 were not abated
correctly. Three of the units contained two incorrect abatements, resulting in 41
abatements that were not processed in accordance with the Authority’s
administrative plan and HUD’s requirements. Accordingly, the contractors failed
to abate payments for 20 units, incorrectly calculated the abated housing
assistance for 11 units, abated seven units but incorrectly repaid the housing
assistance, and incorrectly abated three units.

The following are examples of housing assistance that was incorrectly abated by
the contractors:

   ¾ Household 0910026 failed an annual inspection on August 22, 2008, and
     did not pass before the abatement period began on October 1, 2008. The
     unit should have been abated from October 1, 2008, through January 31,
     2009, totaling $2,260; however, as of March 16, 2009, the abatement had
     not been processed.

   ¾ Household 9721822 failed an annual inspection on April 15, 2008, and did
     not pass before the abatement period began on June 1, 2008. The unit
     should have been abated from June 1 through July 15, 2008, totaling
     $1,735. The unit passed inspection on July 16, 2008; however, the
     abatement was from July 1 through July 15, 2008, for $566, but the
     housing assistance for June 2008 was not abated, totaling $1,169 ($1,735
     minus $566).

   ¾ Household 0962568 failed an annual inspection on December 7, 2007, and
     did not pass before the abatement period began on February 1, 2008. The
     unit should have been abated from February 1 through July 6, 2008,
     totaling $6,025. The unit passed inspection on July 7, 2008; however, this
     amount was initially abated but was later paid back. There was no
     documentation to support this decision, and in addition, the unit failed
     three more times after February 1, 2008; therefore, it should not have
     received housing assistance.

According to the Authority’s administrative plan, when an owner fails to correct
cited repairs within the specified timeframe, housing assistance payments will be
abated effective the first of the month following the month in which the failed
reinspection occurred, and the abatement will continue until such time as the
owner corrects the deficiencies. The housing assistance payments may be
resumed as of the pass inspection date unless the housing assistance payments
contract expires or is terminated. The Authority will not resume housing
assistance payments until the owner corrects the deficiencies and the unit passes
inspection. No retroactive payments will be made for the period during which the




                                8
           rent abatement occurred. The Authority did not follow its administrative plan
           when it incorrectly processed the abatements for 38 program units.

           As a result, households resided in units that were not decent, safe, and sanitary.

The Authority’s Procedures
and Controls over Its
Contractors Had Weaknesses

           The weaknesses in the abatement process occurred because the Authority did not
           provide adequate supervision and oversight of its contractors. There were no
           formal quality control reviews performed by the Authority to examine the
           performance of its contractors in relation to the abatement process during our
           audit period. As of February 2009, the Authority was developing a quality
           control department for the purpose of contractor oversight.

           Further, the process of entering abatements into the Authority’s Yardi system was
           a manual process as was the process of lifting abatements and, therefore, subject
           to user error. For this reason, proper oversight and control of this process was
           vital to ensure that it was performed correctly.

           CVR mistakenly released more than $1 million in program assistance that was
           properly abated back to program landlords in March and April 2009. As a result,
           landlords who were not scheduled to receive program assistance received the
           abated assistance. This problem occurred when CVR attempted to manually clean
           up abatements that were open on accounts in which the tenant no longer resided in
           the unit with open abatements, including units in abatement for 60 days or more.
           In the process of performing the manual cleanup the Authority’s Yardi system
           inadvertently released the abatements.

           Of the more than $1 million improperly paid, the Authority worked with its bank
           and stopped payment on $301,462 so that the landlords did not receive payment.
           The Authority also recaptured $165,087 from various landlords and as of July 9,
           2009, was recapturing $172,031 from landlords who had units on its program.
           The Authority had not recaptured the remaining $378,505 ($1,017,085 minus
           $301,462 minus $165,087 minus $172,031) from 54 landlords who did not have
           households on the program; however, the Authority sent the landlords a final
           notice, dated June 4, 2009, requesting repayment immediately.

           The Authority’s senior vice president of the program said that as of June 29, 2009,
           the Authority had upgraded to a new version of Yardi that automatically closes
           abatements when a household moves.




                                             9
As previously mentioed, after June 2008 when the contract to administer the
Authority’s program was divided, CVR was responsible for the housing quality
standards inspection portion of the program. CVR subcontracted this function to
McCright. McCright used its eMIMS system to maintain and track the inspecton
results. An additional function of the eMIMS system was an abatement report,
which provided CVR and Quadel with a daily report of the units that might need
to be abated or terminated and/or need further review. The abatement actions that
the eMIMS abatement report determines were produced from the abatement
matrix logic that is built into the eMIMS system. This abatement matrix, which
consists of different abatement actions depending upon the inspection type and
result, was agreed to by the Authority and the contractors. The original abatement
matrix logic that was implemented in June 2008 did not correctly identify all units
that needed to be abated. As a result, some units needing abatement were not
included in the abatement report and did not have an abatement correctly
processed. Effective December 1, 2008, the updated abatement matrix logic was
entered into the eMIMS system and was further updated in January 2009 in an
attempt to resolve the problems with the eMIMS abatement report.

Although the Authority updated its system to correct this problem, we did not
review any household files after the Authority implemented its new procedures.
Therefore, we could not determine whether the new procedures reduced the
Authority’s weaknesses.

Further, adequate documentation of requested and approved inspection extensions
and deadlines, other documentation approving inspection-related issues that relate
to abatements, and documentation showing why abatements were initially placed
correctly and then later reversed was not always available. Documentation to
support these decisions must be available, and procedures must exist that govern
these situations. According to HUD’s Housing Choice Voucher Guidebook
7420.10, public housing authorities should have an established policy and
procedure for receiving and processing requests regarding housing quality
standards compliance deadlines, including the conditions under which extensions
will be granted.

From June 2008 through December 2008, the Authority’s contractor Quadel did
not perform the procedures in its established quality control plan for abatements.
For example, Quadel was to review 50 failed inspections monthly to determine
whether they were processed correctly and abatements were placed if needed;
however, Quadel only reviewed 52 failed inspections during this seven month
period rather than 50 monthly.




                                 10
Conclusion

             As a result of control weaknesses in the abatement and reinspection processes, the
             Authority’s landlords received housing assistance payments for units that were
             not in compliance with HUD’s housing quality standards. The 38 units that were
             not properly abated resulted in $49,098 in housing assistance payments to
             landlords whose units contained housing quality standards deficiencies that were
             not corrected in a timely manner.

             In accordance with 24 CFR 982.152(d), HUD is permitted to reduce or offset any
             program administrative fees paid to a public housing authority if it fails to enforce
             HUD’s housing quality standards. The Authority received $3,662 in associated
             administrative fees for the period during which the housing assistance payments
             were improperly made for the 38 units.

             If the Authority does not implement adequate procedures and controls regarding
             its housing assistance payments abatements to ensure compliance with HUD’s
             regulations and its administrative plan, we estimate that over the next year, more
             than $1.4 million in future housing assistance will not be properly abated for units
             that failed inspection. Our methodology for this estimate is explained in the
             Scope and Methodology section of this audit report.

Recommendations

             We recommend that the Director of HUD’s Chicago Office of Public Housing
             require the Authority to

             1A. Reimburse its program $52,760 from nonfederal funds ($49,098 for housing
                 assistance payments plus $3,662 in associated administrative fees) for the 38
                 units that were not properly abated.

             1B. Implement adequate procedures and controls regarding its abatement
                 process to include but not be limited to supervisory review of all abatement
                 actions performed in the Yardi system and independent monitoring of the
                 contractors’ performance to ensure that $1,455,654 in housing assistance
                 payments are properly abated in accordance with HUD regulations and the
                 Authority’s administrative plan over the next year.

             1C. Ensure that the abatement report generated from McCright’s eMIMS system
                 is properly designed and tested to include the agreed-upon abatement matrix
                 logic before implementation.




                                              11
1D. Ensure that adequate documentation is maintained to support inspection
    extensions and other determinations regarding the abatement of housing
    assistance payments.

1E. Ensure that it collects the remaining housing assistance from the 54
    landlords that were improperly paid.




                               12
Finding 2: The Authority’s Rent Reasonableness Procedures Were
                             Inadequate
The Authority’s contractors did not determine the reasonableness of program unit rents in
accordance with the Authority’s administrative plan or HUD’s requirements. The contractors
also failed to maintain required documentation to support the reasonableness determinations.
This condition occurred because the Authority and its contractors lacked adequate procedures
and controls regarding the Authority’s rent reasonableness process. As a result, HUD and the
Authority lacked assurance that contract rents were reasonable.



 The Authority’s Contractors
 Did Not Adequately Determine
 Initial Rent Reasonableness

              From the 8,071 households who moved into a new unit, either by new admission or
              transfer, between January 1, 2008, and January 31, 2009, we statistically selected 67
              households to review to determine whether the initial rent reasonableness decision
              was accurately determined and adequately documented. We performed our review
              in accordance with the Authority’s rent reasonableness procedures in place during
              the audit period. Before June 2008, Quadel handled the rent reasonableness
              determinations. Beginning June 2, 2008, CVR assumed responsibility for the rent
              reasonableness determinations, which were handled by its subcontractor McCright.
              Both CVR and Quadel failed to document the rent reasonableness determinations
              for units leased under the program when households initially moved into the unit.
              As a result, 37 of the 67 (55 percent) initial rent reasonableness determinations
              reviewed had incorrect contract rent amounts. Of the 67 initial rent
              reasonableness determinations,

                ¾ 39 did not have the gross rent range sheet documented and did not use it in
                  determining the contract rent,
                ¾ 34 did not have the rent reasonableness certification form documented
                  showing the decision made,
                ¾ 13 were completed after the lease effective date, and
                ¾ 11 did not have the rent burden sheet documented.

 The Authority’s Contractors
 Did Not Adequately Determine
 the Reasonableness of Rent
 Increases

              From the 1,911 households whose landlords requested and were granted a rent
              increase effective between January 1, 2008, and February 1, 2009, we statistically


                                               13
           selected 66 households to determine whether the reasonableness of rent increase
           decisions was accurately determined and adequately documented. One of the
           households reviewed had two rent increases during the period, resulting in 67 rent
           increases reviewed. We performed our review according to the Authority’s rent
           reasonableness procedures effective during the audit period. Both CVR and Quadel
           failed to correctly calculate and document the rent reasonableness determination
           for units leased under the program when owners requested and were granted rent
           increases. As a result, 31 of the 67 (46 percent) rent increases reviewed resulted
           in an incorrect contract rent amount. Of the 67 rent increases reviewed,

             ¾ Nine did not have the rent increase request documented,
             ¾ Eight did not have the rent reasonableness certification form documented
               showing the decision made, and
             ¾ Six did not have the corresponding housing assistance payments contract
               documented.

The Authority’s Contractors’
Procedures and Controls Had
Weaknesses

           In 2002, Quadel decided to change its rent reasonableness determinations by no
           longer comparing requested rents for program units directly to comparable
           unassisted unit rents. Rather, it implemented a rent range methodology in which
           each requested rent was compared to a similar sample of nonsubsidized units.
           The rent ranges consisted of reasonable gross rents (contract rents/rent to owner
           plus utilities) of apartment units by community area, number of bedrooms, and
           unit quality.

           From July 2003 through January 2004, Quadel collected market rent data for
           more than 14,000 unassisted units from across the 77 community areas within the
           city. The data were used to generate the gross rent maximum sheet, effective
           August 30, 2004. Quadel’s program director said that nearly a quarter of the 77
           community areas were to be reviewed quarterly to determine whether the gross
           rent maximum sheet needed to be updated. However, according to the
           Authority’s administrative plan, the Authority maintains market survey
           information on rents for comparable units in the area for 24 months. Survey
           information that was more than 24 months old was not used for determining rent
           reasonableness. Thus, the gross rent maximum sheet was updated every two
           years. Conversely, the Authority lacked procedures on how and when to update
           the gross rent maximum sheet. In addition, the comparable unassisted unit data
           used to determine whether the sheet needed updating was only partially available.
           The comparable data provided did not include information for all of the 77
           community areas, and the accompanying timeframes fluctuated.




                                           14
             The gross rent maximum sheet was again updated by Quadel, effective May 15,
             2006. This was the gross rent maximum sheet that was used to determine whether
             owner-requested rents were reasonable during our audit period; however, it was
             not supported by market survey information as required by the Authority’s
             administrative plan. In addition, many of the amounts on the May 15, 2006, gross
             rent maximum sheet remained the same as on the 2004 sheet. As previously
             mentioned, market survey information that was more than 24 months old was not
             to be used for determining rent reasonableness. Further, because the gross rent
             maximum sheet was determined based on gross rents of apartments, additional
             amounts were added to units if they were single-family homes or town
             houses/row houses to reflect increased rent amounts. However, the increases
             were not supported by underlying data or procedures.

             The Authority’s former program director said that due to the difficulties with the
             rental market and the impending contract split, the May 15, 2006, gross rent
             maximum sheets would continue to be used. This information was only
             communicated verbally; there was no written communication of this directive to
             the staff.

             However, McCright failed to consider the gross rent maximum sheet, effective
             May 15, 2006, in its initial rent reasonableness determinations. Instead, McCright
             used gross rent data contained in the Authority’s ETL system. The gross rent data
             from the ETL system had not been previously used by Quadel as part of its rent
             reasonableness determination procedures and should not have been used in the
             rent reasonableness determination. McCright’s manager of operations said that
             his firm assumed that the ETL gross rent data were current and did not reconcile
             those data to the data on the May 15, 2006, sheet. Because it was stressed that
             ETL was the system of record for initial rent determinations, when McCright
             began using the ETL gross rent data, it did not consider the possibility that the
             data might not be accurate.

             Further, Quadel and CVR granted rent increases despite the fact that the requested
             rent amount plus the household’s utility allowance exceeded the gross rent
             amount from the gross rent maximum sheet in effect. The contractors also used
             the incorrect utility allowance, which resulted in the rent amount being incorrectly
             calculated. Moreover, there was no documentation to verify that bedroom size
             discrepancies between the rent increase request and the Authority’s Yardi system
             were satisfied and the correct bedroom size was used.

Conclusion

             The weaknesses in the rent reasonableness process occurred because the
             Authority did not provide adequate supervision and oversight of its contractors.
             There were no formal quality control reviews performed by the Authority to



                                              15
          examine the performance of its contractors in relation to the rent reasonableness
          process during our audit period. Although CVR had quality control procedures
          for rent reasonableness determinations, it only checked to ensure that rent
          reasonableness determinations were made and documented but not whether they
          were done according to the procedures in place and whether the correct rent
          amount was determined.

          Further, the Authority’s contractors failed to comply with the Authority’s
          program administrative plan and HUD’s requirements when determining the rent
          reasonableness for program units. As a result, HUD and the Authority lacked
          assurance that the contract rents were reasonable.

          In accordance with 24 CFR 982.152(d), HUD is permitted to reduce or offset any
          program administrative fees paid to a public housing authority if it fails to
          perform its administrative responsibilities correctly or adequately under the
          program. The Authority received $31,655 in program administrative fees related
          to the 67 households for which initial contract rents were inadequately determined
          to be reasonable and $32,126 in program administrative fees related to the 66
          households for which rent increase contract rents were inadequately determined to
          be reasonable.

Recommendations

          We recommend that the Director of HUD’s Chicago Office of Public Housing
          require the Authority to

          2A. Provide support or reimburse its program $63,781 ($31,655 in initial plus
              $32,126 in rent increases) from nonfederal funds for the administrative fees
              related to the 133 (67 initial plus 66 rent increases) households cited in this
              finding.

          2B. Implement adequate procedures and controls regarding its rent
              reasonableness process to include but not be limited to verifying the
              reasonableness of rents before executing housing assistance payments
              contracts with owners and maintaining complete and accurate
              documentation of the decisions.

          2C. Ensure that market survey information on rents for comparable units is
              maintained and verified within the timeframe specified in the Authority’s
              administrative plan.




                                           16
Finding 3: Controls over Recovery of Erroneous Housing Assistance
   and Utility Allowance Payments to Landlords Need Improvement
The Authority’s contractors incorrectly paid housing assistance to more than one landlord on
behalf of a single household. They also did not comply with the Authority’s program
administrative plan regarding repayment agreements with households’ landlords. These
conditions occurred because the Authority and its contractors lacked adequate procedures and
controls to ensure that the Authority’s program administrative plan was appropriately followed.
As a result, the Authority overpaid more than $64,000 in housing assistance and utility
allowances.


 The Authority Did Not Recover
 Housing Assistance and Utility
 Allowance Payments of More
 Than $64,000

              During our review of the rent reasonableness determinations (finding 2), we
              determined that there were households with multiple identification numbers that
              resulted in the previous and current landlord receiving housing assistance
              payments during the same period. A review of 35,097 active program households
              as of January 31, 2009, revealed 105 suspected cases in which multiple landlords
              could have received housing assistance payments for a single household. The 105
              household files were reviewed to determine whether the Authority inappropriately
              provided housing assistance to landlords and if so, whether a repayment
              agreement was executed to recapture any overpayment of housing assistance. Our
              review was limited to the information maintained by the Authority in its
              household files. The 105 households were managed by both Quadel and CVR
              from January 1, 2008, through June 19, 2009.

              As a result of our review, we discovered the following problems with 31
              households:

                  ¾ 23 needed housing assistance payments recaptured,
                  ¾ 21 needed the move-out date and/or lease-end date for the previous unit
                    added in Yardi, and
                  ¾ One needed its identification number cancelled in Yardi.

              Quadel’s program director said that Quadel received data from the ETL system to
              determine which households were in the move process and needed contracts to be
              sent out. The process of determining which household needed contracts to be sent
              out, sending the contracts out, receiving them back, and finalizing the move
              process can sometimes take two to three months to complete. During this time,
              the landlord of the household’s prior unit continues to receive housing assistance


                                               17
payments. Once the contract was finalized and the move-out date for the old unit
and move-in date for the new unit were determined, Quadel went into the Yardi
system and recaptured the appropriate amount that was overpaid to the
household’s prior landlord. Sometimes there was a disconnect in this process
because of the time it took and the two different systems, ETL and Yardi, which
resulted in the household’s prior unit landlord’s housing assistance payment not
being correctly stopped.

The program director also said that placing the lease-end date on the incorrect
form HUD-50058 for the household’s prior unit would cause the prior landlord to
continue to receive housing assistance payments. Also, Yardi inadvertently added
an incorrect lease-end date to the subsidy schedule, allowing the prior landlord to
continue to receive housing assistance payments after the household moved out.

Of the 23 landlords that received overpaid housing assistance, 21 payments were
the result of a household’s moving from one unit to another and the old and new
landlords both being paid housing assistance for the same period. Also, 13 of the
23 households questioned did not have a lease end date in the Yardi system. In
addition, two of the households reviewed had multiple household identification
numbers, but the household was the same; therefore, the same landlord received
multiple program assistance.

The housing assistance overpayments for the 23 households totaled $96,877. Of
this amount, the Authority was recapturing $26,587 for 11 households through the
reduction in the landlords’ rental assistance. However, as of June 19, 2009, the
Authority had not entered into its account tracking system to automatically deduct
the overpayment amounts from the landlords’ current housing assistance
payments or entered into a formal repayment agreement to recapture the
remaining $64,700 for the 12 remaining households.

According to the Authority’s administrative plan, if it determines that a household
received excess rental assistance, the Authority was responsible for seeking
repayment. Repayment may include tenant repayment of excess assistance in full,
tenant repayment of excess assistance through a repayment agreement, a decrease
in prospective rental assistance without the use of a formal repayment agreement,
or repayment through legal action.




                                18
The Authority’s System
Produced Multiple
Identification Numbers
Resulting in Incorrect Housing
Assistance Payments

             The Authority’s Yardi system had, as part of its core functionality, the assignment
             of multiple household identification numbers to individual households for
             tracking purposes. The initial numbers, statically assigned at a bulk data load or
             automatically system assigned at individual data entry, remained with the
             household. If a household should change property, it retained the initial number
             at the new property, and the system assigned another identifier to the historic
             record at the previous property.

             Actions that resulted in the generation of a historic record were moving from the
             waiting list into a program, moving from one program to another, or moving from
             a unit in one contractor’s portfolio to a unit in the other contractor’s portfolio. As
             a result of the multiple household identification numbers, sometimes the historic
             identification number and the current identification number both had housing
             assistance payments associated with them, one going to the household’s current
             landlord and one going to the household’s prior landlord.

Conclusion

             The Authority did not use its program funds efficiently and effectively when it
             provided landlords housing assistance that they were not entitled to receive. It
             overpaid 12 landlords $64,700 in housing assistance on behalf of a household
             who had multiple household identification numbers.

             If the Authority does not implement adequate procedures and controls over the
             household transfer process to ensure that housing assistance to the households’
             prior unit owner is terminated, it will continue to provide housing assistance to
             landlords that they are not entitled to receive.

Recommendations

             We recommend that the Director of HUD’s Chicago Office of Public Housing
             require the Authority to

             3A. Reimburse its program from nonfederal funds or recapture from the
                 landlords $64,700 for the 12 households for which housing assistance was
                 overpaid due to multiple household identification numbers.



                                               19
3B. Implement adequate procedures and controls to ensure the identification
    number for the household’s prior unit is properly cancelled in the system
    and is not active in the program generating housing assistance, the move out
    date and/or lease end date is properly added in the system for the
    household’s prior unit, and funds paid related to households with multiple
    identification numbers are collected according to its administrative plan.

3C. Review all households that transferred to new units between July 1, 2008,
    and June 30, 2009, to ensure that the households’ prior landlords were not
    issued housing assistance payments beyond the month in which the
    households moved out and initiate actions to recover any housing assistance
    overpayments.




                               20
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

       •    Applicable laws and regulations, the Authority’s 2006 program administrative plan,
            HUD’s program requirements at 24 CFR Part 982, HUD Public and Indian Housing
            Notice 2001-41, and HUD’s Housing Choice Voucher Guidebook 7420.10G.

       •    The Authority’s household files, policies and procedures, board meeting minutes for
            January 2007 through March 2008, program annual contributions contract with HUD,
            and the contracts between the Authority and its contractors.

We also interviewed the Authority’s employees and contractors and HUD staff.

Finding 1

Using data mining software, we statistically selected 98 of the 5,334 program households whose
units had multiple failed housing quality standards inspections between January 1 and December 31,
2008. The 98 program households were selected to determine whether the Authority’s abatements
of housing assistance payments were in accordance with established procedures to enforce HUD’s
housing quality standards. Our sampling criteria used a 90 percent confidence level and precision
of plus or minus 7 percent.

Our sampling results determined that 38 of the 68 program households whose units needed
abatement were not abated correctly from January 1, 2008, through January 31, 2009. Based on our
sample review results, using difference estimation, we are 95 percent confident that the amount of
housing assistance overpaid due to incorrect abatements was at least $1,455,654. This amount was
determined by adjusting the estimated difference lower limit of overpaid housing assistance to
one year. We divided the estimated difference lower limit of $1,576,958 by 13 months and then
multiplied by 12 months. This estimate is presented solely to demonstrate the annual amount of
program funds that will be correctly abated over the next year for units that are in a failed status
if the Authority implements our recommendation. While these benefits would recur indefinitely,
we were conservative in our approach and only included the initial year in our estimate.

Finding 2

From the 8,071 households who moved into a new unit, either by new admission or transfer,
between January 1, 2008, and January 31, 2009, we statistically selected 67 households using data
mining software. The 67 households were reviewed to determine whether the initial rent
reasonableness decision was accurately determined and adequately documented by the Authority’s
contractors. Our sampling criteria used a 90 percent confidence level, 50 percent estimated error
rate, and precision of plus or minus 10 percent.




                                                21
From the 1,911 households whose landlords requested and were granted a rent increase, effective
between January 1, 2008, and February 1, 2009, we statistically selected 66 households to review
using data mining software. The 66 households were reviewed to determine whether the rent
increase rent reasonableness decision was accurately determined and adequately documented by the
Authority’s contractors. One of the households reviewed had two rent increases within the
period, resulting in 67 rent increases reviewed. Our sampling criteria used a 90 percent confidence
level, 50 percent estimated error rate, and precision of plus or minus 10 percent.

We performed our on-site audit work between February and June 2009 at the Authority’s offices
located at 60 East Van Buren, Chicago, Illinois. The audit covered the period January 1, 2008,
through January 31, 2009, but was expanded as determined necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                22
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

     •   Program operations,
     •   Relevance and reliability of information,
     •   Compliance with applicable laws and regulations, and
     •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.


 Relevant Internal Controls

              We determined that the following internal controls were relevant to our audit
              objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Relevance and reliability of data – Policies, procedures, and practices that
                      management has implemented to provide reasonable assurance that
                      operational and financial information used for decision making and reporting
                      externally is relevant, reliable, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to provide reasonable assurance that program
                      implementation is in accordance with laws, regulations, and provisions of
                      contracts or grant agreements.

              •       Safeguarding of assets and resources – Policies and procedures that
                      management has implemented to prevent or promptly detect unauthorized
                      acquisition, use, or disposition of assets and resources.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


                                               23
Significant Weaknesses

           Based on our review, we believe that the following items are significant weaknesses

           •      The Authority lacked adequate procedures and controls to ensure compliance
                  with HUD’s requirements and/or its program administrative plan regarding
                  the enforcement of housing quality standards and oversight of its contractors.
                  Abatement actions were not taken, abatements placed were for the incorrect
                  amounts, and correctly placed abatements were later reversed without
                  documentation (see finding 1).

           •      The Authority lacked adequate procedures and controls to ensure compliance
                  with HUD’s requirements and/or its program administrative plan regarding
                  the determination and documentation of the rent reasonableness decision and
                  oversight of its contractors. The rent reasonableness procedures in place
                  were not followed (see finding 2).

           •      The Authority lacked adequate procedures and controls to ensure compliance
                  with HUD’s requirements and/or its program administrative plan regarding
                  the issuance of housing assistance payments and entering into repayment
                  agreements where housing assistance was overpaid due to multiple
                  household identification numbers. Housing assistance was provided to
                  landlords that they were not entitled to receive and repayment agreements
                  were not entered into (see finding 3).

Separate Communication of
Minor Deficiencies

           We informed the Authority’s chief executive officer and the Director of HUD’s
           Chicago Office of Public Housing of minor deficiencies through a memorandum,
           dated September 23, 2009.




                                            24
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

       Recommendation             Ineligible 1/   Unsupported 2/      Funds to be put
           number                                                      to better use 3/
              1A                      $52,760
              1B                                                          $1,455,654
              2A                                          $63,781
              3A                       64,700
             Totals                  $117,460             $63,781         $1,455,654


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the Authority implements our
     recommendation, it will cease to expend housing assistance funds for units that are in a
     failed status and, instead, will abate those funds in accordance with HUD’s requirements.
     Once the Authority successfully improves its controls, this will be a recurring benefit.
     Our estimate reflects only the initial year of this benefit.




                                             25
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation          Auditee Comments




                   Comment 3




                                26
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         27
Ref to OIG Evaluation   Auditee Comments




Comment 2




                         28
Ref to OIG Evaluation   Auditee Comments




                         29
Ref to OIG Evaluation   Auditee Comments




Comment 3




                         30
Ref to OIG Evaluation   Auditee Comments




Comment 4

Comment 5




                         31
Ref to OIG Evaluation   Auditee Comments




                         32
Ref to OIG Evaluation   Auditee Comments




                         33
Ref to OIG Evaluation   Auditee Comments




                         34
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority did not provide sufficient documentation with its written comments
            to support that only 13 units were not abated and that eight were not abated
            properly, resulting in 21 errors.

Comment 2   We adjusted the report based on the documentation provided by the Authority to
            accurately reflect the Authority’s actions.

Comment 3   We disagree with the Authority’s assertion that 31 of the 67 initial rent
            determinations were properly determined. Documentation and comments
            provided by the Authority did not support its assertion.

Comment 4   We disagree with the Authority’s assertion that 42 of the 67 rent increase rent
            determinations were properly determined. However, we adjusted the audit report
            based upon the additional documentation provided by the Authority. It resulted in
            two additional rent increase determinations being properly determined by the
            Authority; therefore, 31 rent increase rent determinations were not properly
            determined instead of 33 as initially report.

Comment 5   The Authority provided sufficient documentation with its written comments to
            support that one initial rent determination household file contained the rent
            reasonableness certification form showing the decision made. Also for the rent
            increase rent determination, the Authority provided the rent increase request
            document and the rent reasonableness certification form showing the decision
            made for one household.




                                            35
Appendix C

   HUD REGULATIONS AND THE AUTHORITY’S POLICIES

Finding 1

HUD’s regulations at 24 CFR 982.1 state that HUD’s Housing Choice Voucher program pays
rental subsidies so eligible families can afford decent, safe, and sanitary housing. Section
982.52(a) requires the Authority to comply with HUD regulations and other HUD requirements
for the program.

HUD’s regulations at 24 CFR 982.54(c) require the authority to administer the program in
accordance with its program administrative plan.

HUD’s regulations at 24 CFR 982.401(a)(3) state that all program housing must meet the
housing quality standards performance requirements both at commencement of assisted
occupancy and throughout the assisted tenancy.

HUD’s regulations at 24 CFR 982.453(a) state that any of the following actions by the owner
(including a principal or other interested party) is a breach of the housing assistance payments
contract by the owner: “(1) If the owner has violated any obligation under the housing assistance
payment contract for the dwelling unit, including the owner’s obligation to maintain the unit in
accordance with the housing quality standards. (b) The public housing authority rights and
remedies against the owner under the housing assistance payment contract include recovery of
overpayments, abatement or other reduction of housing assistance payments, termination of
housing assistance payments, and termination of the housing assistance payment contract.”

HUD’s Housing Choice Voucher Guidebook 7420.10G, chapter 10, page 10-28, states that the
public housing authority must abate housing assistance payments to owners that do not comply
with notifications to correct housing quality standards deficiencies within the specified period:
24 hours or 30 days depending upon the nature of the deficiency. For valid reasons, the public
housing authority may extend the period. Placement of abatement must occur by the first of the
month following expiration of the notice.

HUD’s Housing Choice Voucher Guidebook 7420.10G, chapter 10, page 10-34, states that for
fairness and consistency, public housing authorities should have an established policy and
procedure for receiving and processing requests regarding housing quality standards compliance
deadlines, including the conditions under which extensions will be granted. It is not advisable to
grant extensions without just cause or to grant verbal extensions as this can be construed as
circumvention of the Section Eight Management Assessment Program requirement.

The Authority’s administrative plans, effective December 19, 2006, and updated July 15, 2008,
page 36, state that when an owner fails to correct cited repairs within the specified timeframe,
housing assistance payments will be abated, effective the first of the month following the month


                                                36
in which the failed reinspection occurred, and the abatement will continue until such time as the
owner corrects the deficiencies (but no longer than 90 calendar days, at which time the housing
assistance payments contract will be cancelled. An extension in one or more increments, not to
exceed an additional 90 calendar days, may be granted for severe weather-related items
(effective July 15, 2008)). The housing assistance payments may be resumed as of the pass
inspection date unless the housing assistance payments contract expires or is terminated.
Housing assistance payments contracts automatically expire if no payments are made for six
continuous months. The Authority will not resume housing assistance payments until the owner
has corrected the deficiencies and the unit passes inspection. No retroactive payments will be
made for the period during which the rent abatement occurred. When the deficiencies are
corrected, however, a prorated housing assistance payment may be provided to the owner for the
period commencing with the date an Authority inspector certified that the required work was
completed.

Finding 2

HUD’s regulations at 24 CFR 982.158(f)(7) state that the public housing authority must keep the
following records for at least three years: records to document the basis for public housing
authority determination that rent to the owner is a reasonable rent (initially and during the term
of a housing assistance payments contract).

HUD’s regulations at 24 CFR 982.305(a)(4) state that the public housing authority may not give
approval for the family of the assisted tenancy or execute a housing assistance payments contract
until the public housing authority has determined that all of the following meet program
requirements: the rent to the owner is reasonable.

HUD’s regulations at 24 CFR 982.507(a) and (b) state: “(a)(1) the public housing authority may
not approve a lease until the public housing authority determines that the initial rent to owner is a
reasonable rent. (2) The public housing authority must redetermine the reasonable rent: (i)
Before any increase in the rent to owner; (ii) If there is a five percent decrease in the published
fair market rent in effect 60 days before the contract anniversary (for the unit size rented by the
family) as compared with the fair market rent in effect 1 year before the contract anniversary; or
(iii) If directed by HUD. (3) The public housing authority may also redetermine the reasonable
rent at any other time. (4) At all times during the assisted tenancy, the rent to owner may not
exceed the reasonable rent as most recently determined or redetermined by the public housing
authority. (b) The public housing authority must determine whether the rent to owner is a
reasonable rent in comparison to rent for other comparable unassisted units. To make this
determination, the public housing authority must consider: (1) The location, quality, size, unit
type, and age of the contract unit; and (2) Any amenities, housing services, maintenance and
utilities to be provided by the owner in accordance with the lease.”

HUD’'s Housing Choice Voucher Guidebook 7420.10G, chapter 9, page 9-3, states that in each
case in which the public housing authority is required to determine rent reasonableness, it must
document its decision and the basis for it (i.e., information on the unassisted units compared) in




                                                 37
the household’s file. This documentation should identify who conducted the rent reasonableness
determination and when.

HUD’s Housing Choice Voucher Guidebook 7420.10G, chapter 9, page 9-7, states that by
updating these listings periodically, public housing authorities may be able to avoid having to
conduct a more expensive, comprehensive survey. The work involved in updating the database
could be spread out (e.g., geographically or by listing site), with some updating occurring each
month. Public housing authorities should always indicate in their documentation the date of the
data collection, so that they know how old it is when using or updating the data. How often the
data should be updated depends upon market conditions. In some communities, it may be
adequate to update the information every two years. For rapidly changing markets, however, it
may be appropriate to update the database quarterly.

HUD’s Housing Choice Voucher Guidebook 7420.10G, chapter 9, page 9-11, states that there
should be written guidance describing how the database will be maintained and how rent
reasonableness determinations will be made and documented. Clear performance standards
should be set, and there should be monitoring and quality control throughout the year, with
training and feedback regarding both good and inadequate performance.

HUD’s Housing Choice Voucher Guidebook 7420.10G, chapter 9, page 9-11, states that public
housing authorities should implement a program of quality control reviews of rent
reasonableness decisions. The review should also ensure that all determinations are consistent
with public housing authority procedures and properly documented in the files. If the public
housing authority assigns responsibility for maintaining the database, it should also require
periodic reviews of the size and representation of the database in comparison to established
public housing authority standards. It is important for program managers to remain involved in
the rent reasonableness process and to ensure that staff is performing in accordance with public
housing authority and HUD requirements.

The Authority’s administrative plans, effective December 19, 2006, and updated July 15, 2008,
page 25, state that rent reasonableness is determined for all new leases and rent increases. A
reasonable rent to the owner is defined as not more than rent charged (a) for comparable units in
the private unassisted market and (b) for comparable unassisted units in the premises. The
Authority will not approve a subsidized tenancy until a determination has been made that the
initial rent to the owner is reasonable. The Authority uses rents based on amounts charged for
nonassisted rents in the 77 neighborhoods in Chicago. The comparability review takes into
consideration the following factors:

• Location
• Quality
• Size
• Unit type
• Age of the contract unit
• Amenities
• Housing services



                                               38
• Maintenance
• Utilities provided by the owner in accordance with the lease

The Authority maintains market survey information on rents for comparable units in the area.
Market survey information that is more than 24 months old is not used for determining rent
reasonableness. If the Authority determines that the amount of rent requested by the owner is
not reasonable, a reasonable rent will be computed, and a counteroffer will be made to the
owner.

The Authority’s administrative plans, effective December 19, 2006, and updated July 15, 2008,
page 35, state that at all times during the assisted tenancy, the rent to the owner may not exceed
the reasonable rent as most recently determined or redetermined by the Authority. The Authority
will redetermine the reasonableness of the rent (1) before any increase in the rent to the owner,
(2) if there is a 5 percent decrease in the published fair market rent in effect 60 days before the
contract anniversary (for the unit size rented by the family) as compared with the fair market rent
in effect one year before the contract anniversary, or (3) if directed by HUD. Rent increases will
not be approved unless the rent is comparable; the unit is in decent, safe, and sanitary condition;
and the owner is in compliance with the terms of the housing assistance payments contract and
lease. The contract rent may not be increased during the initial term of the lease. After the
initial term, owners may request an increase at any time but must provide written notice of any
proposed increase to the family, in accordance with the lease and contract, and to the Authority.
The increase will not be approved unless the increased rent meets rent reasonableness
requirements and the family agrees to the increase.

The Authority’s Owners Reference Manual, page 22, states that all rent increases take effect the
first of the month following a 60-day processing period.

Finding 3

HUD’s regulations at 24 CFR 982.311(a) state that housing assistance payments are paid to the
owner in accordance with the terms of the housing assistance payments contract. Housing
assistance payments may only be paid to the owner during the lease term and while the family is
residing in the unit. “(c) Housing assistance payments terminate if: (1) The lease terminates; (2)
The housing assistance payment contract terminates; or (3) The public housing authority
terminates assistance for the family. (d)(1) If the family moves out of the unit, the public
housing authority may not make any housing assistance payment to the owner for any month
after the month when the family moves out. The owner may keep the housing assistance
payment for the month when the family moves out of the unit. (2) If a participant family moves
from an assisted unit with continued household-based assistance, the term of the assisted lease
for the new assisted unit may begin during the month the family moves out of the first assisted
unit.”

HUD’s Housing Choice Voucher Guidebook 7420.10G, chapter 11, page 11-4, states that the
housing assistance payments contract and the housing assistance payments made under the
housing assistance payments contract terminate automatically in each of the following situations:



                                                39
• Owner or household terminates the lease,
• Lease expires,
• Public housing authority terminates the housing assistance payments contract,
• Public housing authority terminates assistance for the family, or
• Family moves from the unit. The owner is entitled to keep the housing assistance payment for
the month when the family moves out of the unit. The term of a new housing assistance
payments contract for a new unit may begin in the same month in which the participant moves
out of the previously assisted unit. This is not considered a duplicative subsidy.

HUD’s Housing Choice Voucher Guidebook 7420.10G, chapter 11, page 11-5, states that the
public housing authority must make housing assistance payments to the owner in accordance
with the terms of the housing assistance payments contract and the owner must comply with the
provisions of the housing assistance payments contract to receive such payments. The housing
assistance payments contract specifies that payments are to be made monthly at the beginning of
each month. Housing assistance payments must be made only during the lease term and while
the family is residing in the unit. When a lease term begins after the first of the month, the
housing assistance payment for the first month is prorated for a partial month. The monthly
housing assistance payment by the public housing authority is credited toward the monthly rent
to the owner under the family’s lease. The total of the rent paid by the household plus the public
housing authority housing assistance payment may not be more than the rent to the owner. The
owner must immediately return any excess payment to the public housing authority.




                                                40
